                                                                        Federal Register / Vol. 78, No. 96 / Friday, May 17, 2013 / Rules and Regulations                                            29055

                                                  contain any information collections                     List of Subjects in 40 CFR Part 180                      prohibiting State Medicaid Fraud
                                                  subject to OMB approval under the                         Environmental protection,                              Control Units (MFCU) from using
                                                  Paperwork Reduction Act (PRA), 44                       Administrative practice and procedure,                   Federal matching funds to identify fraud
                                                  U.S.C. 3501 et seq., nor does it require                Agricultural commodities, Pesticides                     through screening and analyzing State
                                                  any special considerations under                        and pests, Reporting and recordkeeping                   Medicaid data, known as data mining.
                                                  Executive Order 12898, entitled                         requirements.                                            To support and modernize MFCU efforts
                                                  ‘‘Federal Actions to Address                                                                                     to effectively pursue Medicaid provider
                                                  Environmental Justice in Minority                          Dated: May 9, 2013.                                   fraud, we finalize proposals to permit
                                                  Populations and Low-Income                              Daniel J. Rosenblatt,                                    Federal financial participation (FFP) in
                                                  Populations’’ (59 FR 7629, February 16,                 Acting Director, Registration Division, Office           costs of defined data mining activities
                                                  1994).                                                  of Pesticide Programs.                                   under specified circumstances. In
                                                     Since tolerances and exemptions that                   Therefore, 40 CFR chapter I is                         addition, we finalize requirements that
                                                  are established in accordance with                      amended as follows:                                      MFCUs annually report costs and
                                                  FFDCA sections 408(e) and 408(l)(6),                                                                             results of approved data mining
                                                  such as the tolerances in this final rule,              PART 180—[AMENDED]                                       activities to OIG.
                                                  do not require the issuance of a                                                                                 DATES: These regulations are effective
                                                  proposed rule, the requirements of the                  ■ 1. The authority citation for part 180                 on June 17, 2013.
                                                  Regulatory Flexibility Act (RFA) (5                     continues to read as follows:                            FOR FURTHER INFORMATION CONTACT:
                                                  U.S.C. 601 et seq.) do not apply.                           Authority: 21 U.S.C. 321(q), 346a and 371.           Richard Stern, Department of Health
                                                     This final rule directly regulates                   ■ 2. Section 180.245 is amended by                       and Human Services, Office of Inspector
                                                  growers, food processors, food handlers,                adding paragraph (b) to read as follows:                 General, (202) 619–0480.
                                                  and food retailers, not States or tribes,                                                                        SUPPLEMENTARY INFORMATION:
                                                  nor does this action alter the                          § 180.245 Streptomycin; tolerances for
                                                  relationships or distribution of power                  residues.                                                I. Background and Statutory Authority
                                                  and responsibilities established by                     *     *     *     *    *                                    In 1977, the Medicare-Medicaid Anti-
                                                  Congress in the preemption provisions                     (b) Section 18 emergency exemptions.                   Fraud and Abuse Amendments (Pub. L.
                                                  of FFDCA section 408(n)(4). As such,                    Time-limited tolerances are established                  95–142) were enacted to strengthen the
                                                  the Agency has determined that this                     for residues of streptomycin, in or on                   capability of the Government to detect,
                                                  action will not have a substantial direct               the agricultural commodities, as                         prosecute, and punish fraudulent
                                                  effect on States or tribal governments,                 specified in the following table,                        activities under the Medicare and
                                                  on the relationship between the national                resulting from use of the pesticide                      Medicaid programs. Section 17(a) of the
                                                  government and the States or tribal                     pursuant to FIFRA section 18                             statute amended section 1903(a) of the
                                                  governments, or on the distribution of                  emergency exemptions. Compliance                         Social Security Act (the Act) to provide
                                                  power and responsibilities among the                    with the tolerance levels listed in the                  for Federal participation in the costs
                                                  various levels of government or between                 following table is to be determined by                   attributable to establishing and
                                                  the Federal Government and Indian                       measuring the levels of streptomycin                     operating a MFCU. The requirements for
                                                  tribes. Thus, the Agency has determined                 only, in or on the commodities listed in                 operating a MFCU appear at section
                                                  that Executive Order 13132, entitled                    the table. The tolerances expire on the                  1903(q) of the Act. Promulgated in 1978,
                                                  ‘‘Federalism’’ (64 FR 43255, August 10,                 dates specified in the table.                            regulations implementing the MFCU
                                                  1999) and Executive Order 13175,                                                                                 authority appear at 42 CFR part 1007.
                                                  entitled ‘‘Consultation and Coordination                      Commodity              Parts per      Expiration      Section 1903(a)(6) of the Act requires
                                                  with Indian Tribal Governments’’ (65 FR                                               million         date       the Secretary of Health and Human
                                                  67249, November 9, 2000) do not apply                                                                            Services (the Secretary) to pay FFP to a
                                                                                                          Grapefruit ..........                0.15   12/31/2015
                                                  to this final rule. In addition, this final                                                                      State for MFCU costs ‘‘attributable to the
                                                                                                          Grapefruit, dried
                                                  rule does not impose any enforceable                      pulp ...............               0.40   12/31/2015   establishment and operation of a
                                                  duty or contain any unfunded mandate                                                                             MFCU’’ and ‘‘found necessary by the
                                                  as described under Title II of the                      *       *       *        *       *                       Secretary for the elimination of fraud in
                                                  Unfunded Mandates Reform Act of 1995                    [FR Doc. 2013–11858 Filed 5–16–13; 8:45 am]              the provision and administration of
                                                  (UMRA) (2 U.S.C. 1501 et seq.).                         BILLING CODE 6560–50–P                                   medical assistance provided under the
                                                     This action does not involve any                                                                              State plan.’’ Under the section, States
                                                  technical standards that would require                                                                           receive 90 percent FFP for an initial 3-
                                                  Agency consideration of voluntary                       DEPARTMENT OF HEALTH AND                                 year period for the costs of establishing
                                                  consensus standards pursuant to section                 HUMAN SERVICES                                           and operating a MFCU, including the
                                                  12(d) of the National Technology                                                                                 costs of training, and 75 percent FFP
                                                  Transfer and Advancement Act of 1995                    Office of Inspector General                              thereafter. Currently, all States with
                                                  (NTTAA) (15 U.S.C. 272 note).                                                                                    MFCUs receive FFP at a 75-percent rate.
                                                                                                          42 CFR Part 1007                                         In accordance with section 1903(q) of
                                                  VIII. Congressional Review Act
                                                                                                                                                                   the Act, MFCUs must be separate and
                                                    Pursuant to the Congressional Review                  [OIG–1203–F]                                             distinct from the State’s Medicaid
                                                  Act (5 U.S.C. 801 et seq.), EPA will                    State Medicaid Fraud Control Units;                      agency. For a State Medicaid agency,
                                                  submit a report containing this rule and                                                                         general administrative costs of operating
wreier-aviles on DSK5TPTVN1PROD with RULES




                                                                                                          Data Mining
                                                  other required information to the U.S.                                                                           a State Medicaid program are
                                                  Senate, the U.S. House of                               AGENCY:  Office of Inspector General                     reimbursed at a rate of 50 percent,
                                                  Representatives, and the Comptroller                    (OIG), HHS.                                              although enhanced FFP rates are
                                                  General of the United States prior to                   ACTION: Final rule.                                      available for certain activities specified
                                                  publication of the rule in the Federal                                                                           by statute, including those associated
                                                  Register. This action is not a ‘‘major                  SUMMARY:  This final rule amends a                       with Medicaid management information
                                                  rule’’ as defined by 5 U.S.C. 804(2).                   provision in HHS regulations                             systems (MMIS).


                                             VerDate Mar<15>2010   15:13 May 16, 2013   Jkt 229001   PO 00000    Frm 00037    Fmt 4700    Sfmt 4700   E:\FR\FM\17MYR1.SGM   17MYR1
                                                  29056                 Federal Register / Vol. 78, No. 96 / Friday, May 17, 2013 / Rules and Regulations

                                                     To increase MFCU effectiveness in                    Medicaid agencies and has required the                   Third, MFCU staff should be properly
                                                  eliminating Medicaid fraud, this final                  MFCUs to remain highly dependent on                   trained in data mining techniques.
                                                  rule modifies an existing regulatory                    referrals from State Medicaid agencies                Although tools and methods for data
                                                  prohibition on the payment of FFP for                   and other external sources.                           mining may be widely available,
                                                  activities generally known as data                         For many years, we understand that                 appropriate training is necessary.
                                                  mining. We discuss the reasons for this                 many MFCUs have had online access to                     For these reasons, we proposed in
                                                  modification below.                                     Medicaid claims information for                       new 42 CFR 1007.20 that as a condition
                                                                                                          purposes of individual case                           for claiming FFP in costs of data mining,
                                                  II. Provisions of the Proposed                                                                                a MFCU must identify methods for
                                                  Regulation                                              development, but have been prohibited
                                                                                                          by regulation from receiving FFP for                  addressing these three critical elements
                                                     We published a proposed rule in the                  using claims data for identifying other               in its agreements with the State
                                                  Federal Register on March 17, 2011 (76                  potential cases. Since the 1978 rule was              Medicaid agency: Coordination with the
                                                  FR 14637), that would permit use of                     promulgated, highly advanced tools and                State Medicaid agency, programmatic
                                                  Federal matching funds by MFCUs,                        methods have become available that                    knowledge, and training. We further
                                                  under specified conditions, for                         allow law enforcement and other                       proposed that OIG must provide specific
                                                  identification of potential Medicaid                    oversight entities to analyze claims                  approval of that agreement to a MFCU
                                                  fraud through data mining activities.                   information and other data. This                      that wants to engage in data mining.
                                                     Current Federal regulations at 42 CFR                                                                      OIG will consult with CMS in approving
                                                                                                          includes the detection of aberrant
                                                  1007.19 specify that State MFCUs are                                                                          data mining requests, given the CMS
                                                                                                          billing patterns and the development of
                                                  prohibited from using Federal matching                                                                        role in overseeing the activities of State
                                                                                                          predictive models. These tools and
                                                  funds to conduct ‘‘efforts to identify                                                                        Medicaid agencies and the critical
                                                                                                          methods have been extremely effective
                                                  situations in which a question of fraud                                                                       importance of MFCU coordination with
                                                                                                          in identifying potential fraud cases, and
                                                  may exist, including the screening of                                                                         those agencies.
                                                                                                          they are routinely used by other law
                                                  claims, analysis of patterns of practice,                                                                        We also proposed to require that
                                                                                                          enforcement agencies. We believe that
                                                  or routine verification with beneficiaries                                                                    MFCUs approved to receive FFP for data
                                                                                                          allowing MFCUs to receive funding for
                                                  of whether services billed by providers                                                                       mining include the following
                                                                                                          data mining will enable them to marshal
                                                  were actually received.’’ The                                                                                 information in their annual reports to
                                                  prohibition on Federal matching for                     their resources more effectively and take
                                                                                                                                                                OIG: Costs associated with data mining
                                                  ‘‘screening of claims [and] analysis of                 full advantage of their expertise in
                                                                                                                                                                activities, the number of cases generated
                                                  patterns of practice’’ is commonly                      detecting and investigating Medicaid
                                                                                                                                                                from data mining activities, the outcome
                                                  interpreted as a prohibition on Federal                 fraud vulnerabilities.
                                                                                                                                                                and status of those cases, and monetary
                                                  matching for the costs of data mining by                   At the same time, we recognized in                 recoveries resulting from those
                                                  MFCUs. We proposed to amend                             the proposed rule that three elements                 activities. This information will be used
                                                  § 1007.19(e) to provide for an exception                are critical to ensuring the effective use            by OIG in overseeing and monitoring of
                                                  to this general prohibition on FFP. We                  of data mining by MFCUs.                              MFCUs.
                                                  proposed to add a new § 1007.20, that                      First, MFCUs and State Medicaid
                                                  would describe the conditions under                     agencies must fully coordinate the                    III. Analysis of and Responses to Public
                                                  which the Federal share of data mining                  MFCUs’ use of data mining and the                     Comments
                                                  costs would be available to MFCUs. We                   identification of possible provider fraud.               We received 13 sets of timely
                                                  also proposed to amend § 1007.1                         For example, MFCUs should consult                     comments on the March 17, 2011,
                                                  (‘‘Definitions’’) by adding a definition of             with the State Medicaid agencies in                   proposed rule (76 FR 14637) from a
                                                  data mining for the purposes of this                    considering data mining priorities that               national anti-fraud association, groups
                                                  rule. Finally, we proposed to amend                     may also be subject to program integrity              of health care providers and
                                                  § 1007.17 (‘‘Annual Report’’) to include                and audit reviews. Similarly, State                   beneficiaries, State Attorneys General,
                                                  additional reporting requirements by                    Medicaid agencies and MFCUs should                    individual MFCUs, a State Medicaid
                                                  MFCUs to capture costs associated with                  coordinate data mining projects with                  agency, a managed care entity, and
                                                  data mining activities, the outcome and                 activities of other organizations, such as            information technology health services
                                                  status of those cases, and monetary                     ‘‘review contractors’’ that are selected              companies. Most commenters supported
                                                  recoveries resulting from those                         by the Centers for Medicare & Medicaid                our proposal to provide Federal
                                                  activities.                                             Services (CMS) and are responsible for                reimbursement for data mining
                                                     For the purposes of the proposed rule,               identifying providers subject to audits               activities by MFCUs, citing potential
                                                  we used the term ‘‘data mining’’ to refer               or program administrative actions.                    cost savings through earlier
                                                  specifically to the practice of                            Second, while MFCUs are                            identification of Medicaid fraud, the
                                                  electronically sorting Medicaid claims                  experienced in pursuing Medicaid                      benefit of conserving administrative
                                                  through statistical models and                          fraud, it is the State Medicaid agencies              resources by better targeting of anti-
                                                  intelligent technologies to uncover                     that set the policies governing the                   fraud investigations, and the potential
                                                  patterns and relationships in Medicaid                  appropriate activities of Medicaid                    for increased effectiveness in finding
                                                  claims activity and history to identify                 providers. The MFCUs may be unaware                   and eliminating fraud and abuse.
                                                  aberrant utilization and billing practices              of recent changes in reimbursement                    Commenters supported the addition of
                                                  that are potentially fraudulent.                        policy, making data appear aberrant                   data mining as an optional tool for
                                                     Data mining has historically been the                when they are not. To avoid wasting                   MFCUs that wish to employ it, but not
                                                  responsibility of each State Medicaid                   resources and pursuing data mining                    as a requirement for all MFCUs.
wreier-aviles on DSK5TPTVN1PROD with RULES




                                                  agency, which analyzes Medicaid data                    projects without adequate basis, the                  Supporting commenters also noted that
                                                  as part of its routine program-                         MFCUs must coordinate their efforts                   the results of data mining activities
                                                  monitoring activities. This practice of                 closely with the State Medicaid agency,               should not be viewed as proof of
                                                  relying on the State Medicaid agency                    confirming that the results obtained                  provider fraud or abuse, but as
                                                  has placed the sole burden of                           from data mining are interpreted                      information that assists state officials in
                                                  identifying potentially fraudulent                      correctly, consistent with current policy             targeting anti-fraud monitoring and
                                                  practices using data mining on the State                and practice.                                         investigations.


                                             VerDate Mar<15>2010   15:13 May 16, 2013   Jkt 229001   PO 00000   Frm 00038   Fmt 4700   Sfmt 4700   E:\FR\FM\17MYR1.SGM   17MYR1
                                                                        Federal Register / Vol. 78, No. 96 / Friday, May 17, 2013 / Rules and Regulations                                          29057

                                                    We reviewed each set of comments                      intended to prohibit the MFCUs from                   evolving payment methods where
                                                  and grouped them into related                           conducting other types of Medicaid data               MFCUs might determine that data could
                                                  categories based on subject matter.                     analysis in the normal course of their                be successfully mined to identify
                                                  Below we set forth summaries of the                     investigations.                                       potential fraud. Finally, there may be
                                                  public comments received, our                              Response: We agree that the intent of              relevant non-Medicaid data that would
                                                  responses to those comments, and                        the regulation is not to limit other types            be useful to data mining, such as
                                                  changes we are making in this final rule                of Medicaid data analysis being                       information from other Federal or State
                                                  as a result of the comments received.                   conducted in the normal course of an                  programs or from commercial payers.
                                                                                                          investigation. Units may analyze                         Therefore, in this final rule, we have
                                                  A. Modifications to the Data Mining                     relevant Medicaid data as part of the                 removed the reference to claims data
                                                  Prohibition                                             evidence-gathering process while                      and revised the definition of data
                                                     Comment: One commenter                               investigating a particular possible fraud.            mining to broadly encompass Medicaid
                                                  recommended that OIG eliminate the                      In some instances, this data analysis                 and other relevant data that may be used
                                                  prohibition on paying FFP for data                      conducted as part of a particular                     to identify aberrant utilization, billing,
                                                  mining that is in 42 CFR 1007.19(e)(2),                 investigation might allow the Unit to                 or other practices that are potentially
                                                  rather than establishing an approval                    identify other potential targets, which               fraudulent.
                                                  mechanism for data mining as we have                    would result in opening new fraud
                                                  proposed in a new § 1007.20. The                                                                              C. Annual Report
                                                                                                          cases. Such data analysis is an accepted
                                                  commenter noted the technological                       part of a MFCU’s investigative function                  Comment: One commenter expressed
                                                  advances that have occurred since the                   and does not implicate the prohibition                support for the proposal to include data
                                                  rule was originally published in 1978                   contained in section 1007.19(e)(2) on                 mining information as part of the
                                                  and that data mining is viewed by the                   paying FFP for ‘‘expenditures                         existing annual report rather than as a
                                                  MFCUs as a ‘‘supplemental investigative                 attributable to . . . [e]fforts to identify           separate document. The commenter
                                                  tool.’’ The commenter stated its belief                 situations in which a question of fraud               opposed requiring MFCUs to separately
                                                  that the existing oversight authority in                may exist, including the screening of                 report costs and indicate the return on
                                                  the regulation would provide adequate                   claims [or] analysis of patterns of                   investment from data mining. The
                                                  monitoring of data mining activities.                   practice. . . .’’ Further, analysis of                commenter asserted that data mining
                                                     Response: We do not believe that a                   Medicaid data to support an                           activities could be adequately
                                                  wholesale elimination of the prohibition                investigation of a particular provider is             monitored through the agreement
                                                  on data mining is appropriate. To be                    not subject to the data mining approval               between the MFCU and the State
                                                  effective, data mining requires unique                  process under new § 1007.20. However,                 Medicaid agency. The commenter also
                                                  coordination of the resources and                       we do not believe the text of the                     said that providing information about
                                                  expertise of both the MFCU and the                      regulation itself needs to state this. We             costs and return on investment does not
                                                  State Medicaid agency, as well as                       are also concerned that adding the word               further the three elements we identified
                                                  properly trained staff. In the absence of               ‘‘randomized’’ may limit the statistical              as necessary for data mining to be
                                                  an approval process, we believe that a                  techniques employed by a MFCU when                    effective: Coordination with the State
                                                  MFCU might undertake a data mining                      conducting data mining. Therefore, we                 Medicaid agency, programmatic
                                                  program without trained staff, might                    are not adding the word ‘‘randomized’’                knowledge, and training.
                                                  duplicate data mining activities of the                 as part of our modifications to the                      Response: We believe that providing
                                                  Medicaid agency, or might pursue                        proposed language.                                    information about data mining costs and
                                                  projects that rely upon a                                  Comment: One commenter expressed                   rate of return is an appropriate and
                                                  misunderstanding of program rules or                    concern that the definition of data                   necessary addition to the annual report.
                                                  policy.                                                 mining includes only ‘‘Medicaid                       We proposed to amend our regulations
                                                     However, to reflect technological                    claims’’ as the type of data subject to               to permit Federal reimbursement for
                                                  advances in the use of data, we are                     analysis and suggested expanding the                  data mining because we believe that the
                                                  modifying the proposed definition of                    definition to include managed care                    use of such modern technologies can
                                                  data mining to emphasize the wider                      encounter data and capitation                         help MFCUs more effectively identify,
                                                  range of the possible uses of data,                     payments.                                             investigate, and prosecute Medicaid
                                                  including the use of ‘‘statistical models                  Response: We agree that the proposed               fraud. We believe that collecting basic
                                                  and intelligent technologies’’ as well as               definition should be expanded. We                     cost and performance information will
                                                  other means of electronically sorting                   recognize that managed care constitutes               be critical to carrying out our oversight
                                                  Medicaid data that are conducted for the                a significant and growing proportion of               responsibilities and to determining
                                                  purpose of detecting circumstances that                 the national Medicaid program and that                whether MFCUs are using the additional
                                                  might involve fraud. We are therefore                   the reference to ‘‘claims data’’ may be               Federal funds to increase their
                                                  adding the phrase ‘‘including but not                   too limited.                                          effectiveness and efficiency in pursuing
                                                  limited to the use of’’ before ‘‘statistical               We also recognize that MFCUs may                   fraud. We are therefore finalizing our
                                                  models and intelligent technologies’’ in                find it useful to mine other types of                 requirement that MFCUs approved to
                                                  the definition that appears in section                  data. For example, section 2701 of the                receive FFP in costs for data mining
                                                  1007.1 to emphasize the range of                        Patient Protection and Affordable Care                must provide specific information on
                                                  methods in which data could be used to                  Act, Public Law 111–148 (2010),                       their activities in their annual reports to
                                                  identify potential fraud cases.                         enacted new requirements for States to                OIG.
                                                                                                          collect and provide quality data on
wreier-aviles on DSK5TPTVN1PROD with RULES




                                                  B. Use of Data Mining in the Course of                  health care furnished to Medicaid                     D. Requirements for the MFCU
                                                  an Investigation                                        eligible adults. These data could prove               Agreement With the State Medicaid
                                                    Comment: One commenter suggested                      fruitful in identifying providers that                Agency
                                                  that we add the word ‘‘randomized’’                     may be submitting Medicaid billings for                 Comment: A commenter expressed
                                                  before the word ‘‘practice’’ in defining                services that are of substandard quality              concern that requiring a description of
                                                  data mining and that we add a sentence                  or pose harm to beneficiaries. There are              the duration of the MCFU activity and
                                                  to clarify that the definition is not                   also bundled payments and other                       staff time might be appropriate for a


                                             VerDate Mar<15>2010   15:13 May 16, 2013   Jkt 229001   PO 00000   Frm 00039   Fmt 4700   Sfmt 4700   E:\FR\FM\17MYR1.SGM   17MYR1
                                                  29058                 Federal Register / Vol. 78, No. 96 / Friday, May 17, 2013 / Rules and Regulations

                                                  demonstration project but is an                         information, including the amount of                     We agree that OIG should review data
                                                  inefficient use of MFCU time and                        outside support that MFCUs receive in                 mining requests in an expeditious
                                                  resources. Another concern raised by                    conducting data mining.                               manner. We are therefore adding to the
                                                  the commenter is that establishing a set                   Response: We do not agree that we                  final regulation a 90-day period during
                                                  duration and staff time may not meet                    should further require MFCUs to                       which OIG will review and respond to
                                                  the needs of fraud investigations,                      identify the amount of outside support                a MFCU’s request for data mining
                                                  particularly if duration and staff time                 for conducting data mining. We believe                approval or the request will be
                                                  are treated as minimums that the MFCU                   that expecting a MFCU to include such                 considered approved if OIG fails to
                                                  would be expected to meet. Finally, the                 information in its agreement with the                 respond within the 90-day review
                                                  commenter noted that requiring a                        State agency at the start of the activity             period. This review period is
                                                  defined duration and staff time does not                would be burdensome. We have asked                    comparable to the timeframes that CMS
                                                  address any of the three elements                       only for information that will facilitate             follows for Medicaid State plan
                                                  identified by OIG as critical to effective              essential coordination between the                    approvals and would provide sufficient
                                                  data mining.                                            MFCU and the State Medicaid agency                    time for OIG to review and consult with
                                                     Response: We agree that defining                     and that will permit OIG, in                          CMS on the proposed data mining plan.
                                                  duration and staffing before undertaking                consultation with CMS, to determine                   Should OIG need additional
                                                  data mining activities may not be                       whether Federal reimbursement for data                information, a written request by OIG to
                                                  efficient or reasonable for an activity                 mining activities should be expected to               the MFCU would extend the review
                                                  that MFCUs expect to continue for an                    increase a MFCU’s effectiveness in                    period for another 90 days, beginning on
                                                  extended period and expect to yield                     investigating and prosecuting Medicaid                receipt by OIG of the MFCU’s response.
                                                  investigative leads that were not                       fraud. We will not require any further                We will finalize the requirement that
                                                  anticipated at the outset. We are                       information on outside support to be                  OIG, in consultation with CMS, must
                                                  concerned that MFCUs may be reluctant                   provided to OIG.                                      approve a MFCU’s data mining
                                                  to invest time and resources in data                       Comment: A commenter expressed a                   agreement with the State Medicaid
                                                  mining if they believe that an estimate                 concern that naming a primary point of                agency and add a 90-day period for OIG
                                                  of resources will become an inflexible                  contact is not advisable because                      to respond to the MFCU’s request for
                                                  limitation. Therefore, the final rule                   personnel may change frequently.                      approval, with an extension of 90
                                                  eliminates a requirement in the                                                                               additional days if OIG sends a written
                                                                                                             Response: We agree with the
                                                  proposed rule that MFCUs define                                                                               request for further information.
                                                                                                          comment and will instead require in
                                                  duration and staff time as part of their
                                                                                                          this final rule that the agreement                    F. Burden on State Medicaid Agency
                                                  respective agreements with State
                                                  Medicaid agencies.                                      identify both the individual who will                 Staff
                                                     However, we are mindful of our                       serve as the principal point of contact in               Comment: A commenter expressed
                                                  responsibility to monitor MFCUs’                        each agency, as well as the contact                   concern that the wording of the
                                                  effective and efficient operation. We                   information, title, and office of such                background to the proposed rule was
                                                  have therefore included in the final rule               individuals.                                          vague regarding involvement by State
                                                  a requirement that staff time and other                 E. Approval by OIG in Consultation                    Medicaid agencies, and it suggested that
                                                  costs devoted to data mining activities                 With CMS                                              undue burdens might be imposed on
                                                  be reported in a section of the annual                                                                        Medicaid agency staff. The commenter
                                                  report provided to OIG. We will review                     Comment: A commenter stated that                   was concerned that data mining by
                                                  annual reports carefully to determine                   approval of data mining by OIG, in                    MFCUs will place undue burdens on
                                                  whether MFCUs are effectively using                     consultation with CMS, is unnecessary                 already strapped State resources and
                                                  their resources to carry out their                      if the data mining proposal has been                  will inhibit current program integrity
                                                  functions, including identifying                        approved by the State Medicaid agency                 efforts. The commenter proposed
                                                  potential fraud through data mining and                 as part of the review of the                          alternative wording to emphasize that
                                                  other activities.                                       memorandum of understanding. The                      data mining projects would be
                                                     In addition, we are establishing a 3-                commenter also requested that, if OIG                 conducted entirely by MFCU staff and
                                                  year duration for each approval of FFP                  approval is included, the regulation                  that Medicaid agency staff would
                                                  for data mining by a MFCU. We believe                   identify the number of days in which                  operate in a support role.
                                                  a 3-year period will allow OIG to                       OIG will make an approval decision.                      Response: We do not believe that
                                                  evaluate whether a MFCU is using its                       Response: OIG is responsible for                   MFCU data mining should burden State
                                                  data mining resources effectively. We                   overseeing the efficiency and                         Medicaid agency staff or interfere with
                                                  also believe that 3 years will be                       effectiveness of the MFCU program. We                 their independent program integrity
                                                  sufficient for MFCUs and State agencies                 believe that OIG would not be properly                efforts. The commenter did not suggest
                                                  to implement their data mining                          carrying out this responsibility if it did            changes to the proposed regulation
                                                  activities, assess their operations, and                not review and approve the data mining                itself. The text of the final regulation
                                                  determine any changes that would                        agreement between the State MFCU and                  will require a MFCU that engages in
                                                  increase their effectiveness. At the end                the State Medicaid agency. As part of                 data mining to describe in its negotiated
                                                  of the 3-year period, the MFCU may                      that review, OIG will examine whether                 agreement with the State Medicaid
                                                  request renewal of its approval by                      MFCUs have both the technical                         agency both the methods of
                                                  submitting an updated agreement with                    infrastructure and adequate staffing to               coordination with the Medicaid agency
                                                                                                          conduct data mining and whether they
wreier-aviles on DSK5TPTVN1PROD with RULES




                                                  the State agency. In considering                                                                              as well as how the MFCU will obtain
                                                  renewal, OIG will review any changes to                 have procedures in place to coordinate                training in data mining techniques.
                                                  the agreement and will consider the                     data mining projects with State                          We agree that MFCU data mining will
                                                  information provided on data mining                     Medicaid agency staff. Also, because of               be conducted entirely by MFCU staff
                                                  activities in annual reports and from                   the role and experience of CMS in                     and that State agency staff will operate
                                                  other sources.                                          overseeing the State Medicaid agencies,               in a supporting role. MFCU data mining
                                                     Comment: Another commenter                           we believe that consultation with CMS                 will not inhibit current program
                                                  suggested that OIG obtain further                       is necessary.                                         integrity efforts since the MFCU’s


                                             VerDate Mar<15>2010   15:13 May 16, 2013   Jkt 229001   PO 00000   Frm 00040   Fmt 4700   Sfmt 4700   E:\FR\FM\17MYR1.SGM   17MYR1
                                                                        Federal Register / Vol. 78, No. 96 / Friday, May 17, 2013 / Rules and Regulations                                         29059

                                                  activities will be separate from current                providers and situations. The                         and we will therefore not require it of
                                                  program integrity efforts and should not                commenter asked that OIG carefully                    all MFCUs.
                                                  interfere with ongoing efforts by the                   monitor data mining activities to
                                                                                                                                                                I. Experience With Health Care Data
                                                  Medicaid agency to identify aberrant                    safeguard Federal programs and avoid
                                                                                                                                                                Mining
                                                  payments. Moreover, consistent with                     unduly burdening providers.
                                                  the agreement between the MFCU and                         Response: It is outside the scope of                  Comment: A commenter
                                                  State agency, the Medicaid agency’s                     this regulation to establish monitoring               recommended that OIG require data
                                                  supporting role should not impose an                    requirements for audit activities of State            miners to have experience and expertise
                                                  undue burden on State agency                            Medicaid programs or of Federal                       with health care claims data mining and
                                                  resources. The Medicaid agency should                   entities, such as CMS contractors,                    recommended certain data elements and
                                                  already work closely with the MFCU in                   mentioned by the commenter. In the                    data mining techniques to enhance
                                                  coordinating administrative actions and                 final rule implementing the Medicaid                  effectiveness of MFCU activities.
                                                  in providing programmatic and policy                    Recovery Audit Contractor (RAC)                          Response: We agree that MFCU staff
                                                  information to the MFCU. The Medicaid                   program (76 FR 57808 (September 16,                   engaged in data mining should have the
                                                  agency may serve as a source of training                2011)), CMS noted that State Medicaid                 requisite training to effectively conduct
                                                  for the MFCU in data mining                             agencies are required to coordinate                   data mining projects. For this reason, we
                                                  techniques, but there are other sources                 auditing efforts and to make referrals of             have established in the regulation a
                                                  of such training so this should also not                suspected fraud and/or abuse to the                   condition that MFCU employees
                                                  present an undue burden on the                          MFCU or other appropriate law                         engaged in data mining receive
                                                  Medicaid agency. Finally, we note that                  enforcement agency. In this final rule,               specialized training in data mining
                                                  if the Medicaid agency and the MFCU                     OIG has provided that State MFCUs                     techniques. To the extent that the
                                                  are not currently working in a                          must coordinate data mining activities                commenter is suggesting that MFCUs
                                                  collaborative and efficient manner, this                with State Medicaid agencies to ensure                employ specific individuals with a
                                                  could be the basis for denying a MFCU’s                 that Medicaid policies are well                       particular background in data mining,
                                                  request to conduct data mining.                         understood by the MFCU, that data                     we are not imposing this as a
                                                                                                          mining strategies are not duplicative,                requirement. We believe that MFCUs
                                                  G. Effects of Data Mining on Providers                  and that MFCUs are aware of any                       can determine their own staffing needs
                                                    Comment: One commenter noted that                     program integrity reviews by State                    as they do for the other professional
                                                  OIG should require State Medicaid                       agencies that may involve the same                    activities in which they engage.
                                                  programs to describe how providers                      provider or category of providers.                       With respect to data mining
                                                  may challenge the results of data                       However, we want to again make clear                  techniques, we believe that data mining
                                                  mining. The commenter also asked that                   that we do not intend that this                       approaches should be selected by the
                                                  OIG allow FFP for provider outreach                     coordination will interfere with MFCUs’               MFCU, in consultation with the State
                                                  and education by MFCU staff.                            investigative independence. Audits or                 Medicaid agency and in light of the
                                                    Response: OIG does not establish                      administrative reviews by a State                     particular needs, priorities, and systems
                                                  requirements for State Medicaid                         Medicaid agency, or a State or Federal                in that State. We will therefore not
                                                  agencies, and we do not agree that a                    audit or program integrity contractor,                require the use of any specific data
                                                  MFCU should set up a special process                    may not prevent a MFCU from                           mining technologies or approaches.
                                                  to permit providers to question or                      initiating, carrying out, or completing a
                                                  challenge a fraud investigation                         fraud investigation or prosecution that               IV. Regulatory Impact Statement
                                                  undertaken as a result of data mining. A                may result from data mining.                          A. Regulatory Analysis
                                                  provider would have the same legal
                                                  ability to defend himself or herself in an              H. Coordination With Managed Care                        We have examined the impact of this
                                                  investigation or prosecution undertaken                 Organizations                                         final rule as required by Executive
                                                  by a MFCU whether it was the result of                    Comment: Several commenters                         Orders 12866 and 13563, the Unfunded
                                                  data mining or another source of                        recommended that the regulation be                    Mandates Reform Act of 1995, and the
                                                  referrals to the MFCU. Moreover, we do                  expanded to require that MFCUs                        Regulatory Flexibility Act of 1980 (RFA)
                                                  not believe that it is within the scope of              coordinate their data mining activities               (Pub. L. 96–354).
                                                  this regulation, or within our general                  with Medicaid managed care
                                                                                                                                                                Executive Orders 12866 and 13563
                                                  oversight authority, to dictate to States               organizations, if appropriate, for a
                                                  how their legal systems would allow for                 particular State.                                        Executive Orders 12866 and 13563
                                                  providers to challenge a particular                       Response: Our general approach to                   direct agencies to assess all costs and
                                                  investigation or case.                                  data mining by MFCUs is to give each                  benefits of available regulatory
                                                    OIG recognizes that provider outreach                 MFCU the autonomy to choose how to                    alternatives and, when regulation is
                                                  and education may be useful and                         operate its programs based on the needs               necessary, to select regulatory
                                                  important and that many State Medicaid                  and priorities of each State. While we                approaches that maximize net benefits
                                                  agencies have established provider                      have required each MFCU to describe its               (including potential economic,
                                                  education and outreach programs for                     coordination with its State Medicaid                  environmental, public health, and safety
                                                  which FFP is available. We would                        agency if the MFCU intends to conduct                 effects; distributive impacts; and
                                                  encourage MFCU staff to assist State                    data mining, we regard this                           equity). Executive Order 13563
                                                  Medicaid agencies, as part of their                     coordination as an indispensable                      emphasizes the importance of
                                                                                                          element for data mining to be                         quantifying both costs and benefits, of
wreier-aviles on DSK5TPTVN1PROD with RULES




                                                  coordinating efforts, in outreach and
                                                  education directed toward fraud                         successful. Coordination with managed                 reducing costs, of harmonizing rules,
                                                  detection and prevention.                               care plans may be an effective practice               and of promoting flexibility. A
                                                    Comment: Another commenter raised                     in certain States. However, we believe                regulatory impact analysis must be
                                                  a concern about overlap and duplication                 this determination should be made by                  prepared for major rules with
                                                  among Medicare and Medicaid entities,                   the MFCU, in consultation with the                    economically significant effects ($136
                                                  such as CMS contractors, which may                      State Medicaid agency and in the                      million or more in any given year). We
                                                  audit and investigate some of the same                  context of other data mining priorities,              believe that the aggregate impact of this


                                             VerDate Mar<15>2010   15:13 May 16, 2013   Jkt 229001   PO 00000   Frm 00041   Fmt 4700   Sfmt 4700   E:\FR\FM\17MYR1.SGM   17MYR1
                                                  29060                        Federal Register / Vol. 78, No. 96 / Friday, May 17, 2013 / Rules and Regulations

                                                  rule does not reach this ‘‘economically                    mining as part of a demonstration                     mining, total recoveries as a result of
                                                  significant’’ threshold, and thus, is not                  waiver approved by the Secretary; State               data mining, and net total impact. Table
                                                  considered a major rule.                                   Program Integrity Assessment provided                 1 also includes costs, recoveries, and net
                                                                                                             to CMS from FY 2007 to FY 2010; and                   impact for both Federal and State levels.
                                                  1. Estimated Impact on Medicaid
                                                                                                             results from a 2009 National Health                   We refined our estimates to account for
                                                  Program Expenditures
                                                                                                             Policy Forum presentation ‘‘Prevention                the likelihood that data mining would
                                                    We estimate below the impact of this                     and Early Detection of Health Care                    not provide any recoveries in the first
                                                  rule on Medicaid expenditures over the                     Fraud, Waste, and Abuse’’, which                      year and a limited amount of recoveries
                                                  next 10 years, including both Federal                      reported data from Independence Blue                  in the second year. Table 1 assumes a
                                                  and State expenditures. These estimates                    Cross’s use of data mining for their                  medium rate of State MFCU
                                                  are based on the following: MFCU grant                     benefit plans.                                        participation in data mining activities
                                                  award amounts, expenditures and                              Based on analysis of the information                (40%), a medium rate of return on data
                                                  recoveries from FY 2007–2012 reported                      and data described above, we estimated                mining activities ($6.90 per $1 spent),
                                                  to OIG; information from a Florida                         the potential rate of return on MFCU                  and 33% of recoveries in the second
                                                  MFCU project that commenced in 2010                        data mining activities. Table 1 contains              year. The net Federal impact is savings
                                                  under which the Unit conducts data                         the estimates for the total cost of data              of $34.3 million from FY 2014–FY 2023.

                                                       TABLE 1—ESTIMATED IMPACT ON MEDICAID EXPENDITURES AND RECOVERIES FOR MFCU DATA MINING ACTIVITIES
                                                                                 2014       2015         2016        2017         2018         2019        2020      2021        2022    2023     2014–2023

                                                  Total Cost .............         $1.1       $1.1         $1.2        $1.2        $1.2         $1.2        $1.3       $1.3       $1.3    $1.4         $12.3
                                                  Total Recoveries ..              $0.0      ¥$2.6        ¥$8.0       ¥$8.2       ¥$8.4        ¥$8.6       ¥$8.8      ¥$8.9      ¥$9.1   ¥$9.3        ¥$71.9
                                                  Net Total Impact ...             $1.1      ¥$1.5        ¥$6.9       ¥$7.0       ¥$7.2        ¥$7.3       ¥$7.5      ¥$7.7      ¥$7.8   ¥$8.0        ¥$59.8
                                                  Federal Cost .........           $0.8       $0.9         $0.9        $0.9        $0.9         $0.9        $1.0       $1.0       $1.0    $1.0          $9.3
                                                  Federal Recov-
                                                    eries ..................       $0.0      ¥$1.6        ¥$4.9       ¥$5.0       ¥$5.1        ¥$5.2       ¥$5.3      ¥$5.4      ¥$5.5   ¥$5.6        ¥$43.6
                                                  Net Federal Impact               $0.8      ¥$0.7        ¥$4.0       ¥$4.1       ¥$4.2        ¥$4.3       ¥$4.3      ¥$4.4      ¥$4.5   ¥$4.6        ¥$34.3
                                                  State Cost ............          $0.3       $0.3         $0.3        $0.3        $0.3         $0.3        $0.3       $0.3       $0.3    $0.3          $3.0
                                                  State Recoveries ..              $0.0      ¥$1.0        ¥$3.2       ¥$3.2       ¥$3.3        ¥$3.4       ¥$3.5      ¥$3.6      ¥$3.6   ¥$3.7        ¥$28.5
                                                  Net State Impact ..              $0.3      ¥$0.8        ¥$2.9       ¥$2.9       ¥$3.0        ¥$3.1       ¥$3.2      ¥$3.2      ¥$3.3   ¥$3.4        ¥$25.5
                                                     Note: all figures in millions of dollars; totals may not add due to rounding.


                                                  2. Estimated Impact on Industry                            and thus a full analysis under UMRA is                5. Executive Order 13132
                                                                                                             not necessary.                                          Executive Order 13132 establishes
                                                    We estimate that MFCU data mining
                                                  will likely have a limited impact on the                   4. Regulatory Flexibility Act                         certain requirements that an agency
                                                  health care industry. We believe that the                                                                        must meet when it promulgates a final
                                                  total number of fraud investigations of                       The Regulatory Flexibility Act (RFA)               rule that imposes substantial direct
                                                  providers would increase only to the                       (5 U.S.C. 601 et seq.) generally requires             requirement costs on State and local
                                                  extent that the MFCUs receive                              an agency to conduct a regulatory                     Governments, preempts State law, or
                                                  additional budget authority from the                       flexibility analysis of any rule subject to           otherwise has Federalism implications.
                                                  States to seek an expansion of their                       notice and comment rulemaking                         Since this regulation does not impose
                                                  operations. Therefore, to the extent that                  requirements unless the agency certifies              any costs on State or local Governments,
                                                                                                             that the rule will not have a significant             preempt State or local law, or otherwise
                                                  there is any economic impact, we
                                                                                                             economic impact on a substantial                      have Federalism implications, the
                                                  believe that potential costs to the health
                                                                                                             number of small entities. For the                     requirements of Executive Order 13132
                                                  care industry will be minimal and will
                                                                                                             purposes of RFA, small entities include               are not applicable.
                                                  be surpassed by savings of Federal and
                                                  State dollars.                                             small businesses, certain nonprofit                   B. Paperwork Reduction Act
                                                                                                             organizations, and small government
                                                  3. Unfunded Mandates Reform Act                                                                                     In the proposed rule, pursuant to the
                                                                                                             jurisdictions. Individuals and States are
                                                                                                                                                                   Paperwork Reduction Act, we solicited
                                                    Title II of the Unfunded Mandates                        not included in this definition of a small
                                                                                                                                                                   public comments for 60 days on each of
                                                  Reform Act of 1995 (UMRA) (2 U.S.C.                        entity. This final rule would revise
                                                                                                                                                                   the following issues regarding
                                                  1531–1538) establishes requirements for                    regulations that prohibit State MFCUs                 information collection requirements
                                                  Federal agencies to assess the effects of                  from using Federal matching funds to                  (ICRs). No comments were received on
                                                  their regulatory actions on State, local,                  conduct ‘‘efforts to identify situations in           these issues. For the purpose of this
                                                  and tribal governments and the private                     which a question of fraud may exist,                  final rule, we are soliciting public
                                                  sector. Under UMRA, agencies must                          including the screening of claims,                    comment for 30 days for the following
                                                  assess a rule’s anticipated costs and                      analysis of patterns of practice, or                  sections of this rule regarding ICRs:
                                                  benefits before issuing any rule that may                  routine verification with beneficiaries of               • The need for the information
                                                  result in aggregate costs to State, local,                 whether services billed by a provider                 collection and its usefulness in carrying
wreier-aviles on DSK5TPTVN1PROD with RULES




                                                  or tribal governments, or the private                      were actually received.’’ These revisions             out the proper functions of our agency;
                                                  sector, of greater than $100 million in                    impose no significant economic impact                    • the accuracy of our estimate of the
                                                  1995 dollars (currently adjusted to $139                   on a substantial number of small                      information collection burden;
                                                  million). This final rule does not impose                  entities. Therefore, the undersigned                     • the quality, utility, and clarity of
                                                  any Federal mandates on any State,                         certifies that this rule will not have a              the information to be collected; and
                                                  local, or tribal government or the private                 significant impact on a substantial                      • recommendations to minimize the
                                                  sector within the meaning of UMRA,                         number of small entities.                             information collection burden on the


                                             VerDate Mar<15>2010      15:13 May 16, 2013   Jkt 229001   PO 00000   Frm 00042   Fmt 4700   Sfmt 4700   E:\FR\FM\17MYR1.SGM   17MYR1
                                                                                Federal Register / Vol. 78, No. 96 / Friday, May 17, 2013 / Rules and Regulations                                                      29061

                                                  affected public, including automated                                  actual monetary recoveries (both                       these requirements. We arrived at this
                                                  collection techniques.                                                Federal and non-Federal share); and any                estimate after consulting with Florida’s
                                                                                                                        other relevant indicia of return on                    MFCU, which since 2010 has a waiver
                                                  1. ICRs Regarding the Annual Report
                                                                                                                        investment from such activities.                       to conduct data mining. We estimate
                                                  (§ 1007.17)                                                             The burden associated with the                       that MFCU participation in data mining
                                                     Section 1007.17 states that all costs                              requirements in 1007.17 is expected to                 activities will be at a ‘‘medium’’ level,
                                                  expended in a given year by MFCUs                                     be minimal because MFCUs have                          or at about 20 units. The burden
                                                  attributed to data mining activities must                             existing systems in place to track their               associated with the existing annual
                                                  be included as part of their existing                                 activities, including costs, staff time,
                                                                                                                                                                               report requirement contained in
                                                  annual report, including the amount of                                and status and outcomes. The burden
                                                  staff time devoted to data mining                                                                                            § 1007.17 is approved under existing
                                                                                                                        associated with this requirement is the
                                                  activities; the amount of staff time                                  time and effort necessary to track and                 OMB Control Number (OCN) 0990–
                                                  devoted to data mining activities; the                                calculate information to be included in                0162.
                                                  number of case generated from those                                   their annual report. We estimate that it                 Table 2 indicates the paperwork
                                                  activities; the outcome and status of                                 will take each state approximately one                 burden associated with the
                                                  those cases, including the expected and                               additional hour per year to comply with                requirements of this final rule.
                                                                                                                                                                                   Hourly labor
                                                                                                                                Responses           Burden per      Total annual                    Total labor
                                                                                              OMB Control                                                                            cost of                        Total cost
                                                       Regulation section                                    Respondents            per              response         burden                          cost of
                                                                                                 No.                                                                                reporting                          ($)
                                                                                                                                respondent            (hours)         (hours)                        reporting
                                                                                                                                                                                       ($)

                                                  1007.17 .............................       0990–0162            20                1                 88              1760            23.39         102,916         102,916



                                                    Please submit any comments you may                                     (i) For those MFCUs approved to                     information, title, and office of such
                                                  have on these information collection                                  conduct data mining under § 1007.20,                   individuals;
                                                  and recordkeeping requirements to the                                 all costs expended that year by the                       (2) MFCU employees engaged in data
                                                  Office of Information and Regulatory                                  MFCU attributed to data mining                         mining receive specialized training in
                                                  Affairs, Office of Management and                                     activities; the amount of staff time                   data mining techniques;
                                                  Budget, Attention: OIG Desk Officer,                                  devoted to data mining activities; the                    (3) The MFCU describes how it will
                                                  [OIG–1203–F], Fax: (202) 395–5806; or                                 number of cases generated from those                   comply with paragraphs (a)(1) and (2) of
                                                  Email: OIRA-submission@omb.eop.gov.                                   activities; the outcome and status of                  this section as part of the agreement
                                                                                                                        those cases, including the expected and                required by § 1007.9(d); and
                                                  List of Subjects in 42 CFR Part 1007                                                                                            (4) The Office of Inspector General,
                                                                                                                        actual monetary recoveries (both
                                                    Administrative practice and                                         Federal and non-Federal share); and any                Department of Health and Human
                                                  procedure, Fraud, Grant programs—                                     other relevant indicia of return on                    Services, in consultation with the
                                                  health, Medicaid, Reporting and                                       investment from such activities.                       Centers for Medicare & Medicaid
                                                  recordkeeping requirements.                                                                                                  Services, approves in advance the
                                                                                                                        ■ 4. In § 1007.19, revise paragraph (e)(2)
                                                    For the reasons set forth in the                                                                                           provisions of the agreement as defined
                                                                                                                        to read as follows:                                    in paragraph (a)(3) of this section.
                                                  preamble, OIG amends 42 CFR part
                                                                                                                        § 1007.19   Federal financial participation               (i) OIG will act on a request from a
                                                  1007, as set forth below:
                                                                                                                        (FFP).                                                 MFCU for review and approval of the
                                                  PART 1007—[AMENDED]                                                   *     *     *     *     *                              agreement within 90 days after receipt
                                                                                                                          (e) * * *                                            of a written request or the request shall
                                                  ■ 1. Revise the authority citation to part                              (2) Routine verification with                        be considered approved if OIG fails to
                                                  1007 to read as follows:                                              beneficiaries of whether services billed               respond within 90 days after receipt of
                                                    Authority: 42 U.S.C. 1396b(a)(6),                                   by providers were actually received, or,               the written request.
                                                  1396(b)(3), 1396b(q), and 1302.                                                                                                 (ii) If OIG requests additional
                                                                                                                        except as provided in § 1007.20, efforts
                                                                                                                                                                               information in writing, the 90-day
                                                  ■ 2. In § 1007.1, add in alphabetical                                 to identify situations in which a
                                                                                                                                                                               period for OIG action on the request
                                                  order, the definition for ‘‘data mining’’                             question of fraud may exist, including
                                                                                                                                                                               begins on the day OIG receives the
                                                  to read as follows:                                                   the screening of claims and analysis of
                                                                                                                                                                               information from the MFCU.
                                                                                                                        patterns of practice that involve data                    (iii) The approval is for 3 years.
                                                  § 1007.1        Definitions.                                          mining as defined in § 1007.1;                            (iv) A MFCU may request renewal of
                                                  *     *      *    *     *                                             *     *     *     *     *                              its data mining approval for additional
                                                    Data mining is defined as the practice
                                                                                                                        ■ 5. Add § 1007.20 to read as follows:                 3-year periods by submitting a written
                                                  of electronically sorting Medicaid or
                                                                                                                                                                               request for renewal to OIG, along with
                                                  other relevant data, including but not                                § 1007.20 Circumstances in which data                  an updated agreement with the State
                                                  limited to the use of statistical models                              mining is permissible and approval by HHS
                                                                                                                                                                               Medicaid agency.
                                                  and intelligent technologies, to uncover                              Office of Inspector General.
                                                                                                                                                                                  (b) [Reserved]
                                                  patterns and relationships within that                                   (a) Notwithstanding § 1007.19(e)(2), a
                                                  data to identify aberrant utilization,                                                                                         Dated: January 2, 2013.
                                                                                                                        MFCU may engage in data mining as
                                                  billing, or other practices that are                                  defined in this part and receive Federal               Daniel R. Levinson,
wreier-aviles on DSK5TPTVN1PROD with RULES




                                                  potentially fraudulent.                                               financial participation only under the                 Inspector General.
                                                  *     *      *    *     *                                             following conditions:                                    Dated: January 17, 2013.
                                                  ■ 3. In § 1007.17, add paragraph (i) to                                  (1) The MFCU identifies the methods                 Kathleen Sebelius,
                                                  read as follows:                                                      of coordination between the MFCU and                   Secretary, Department of Health and Human
                                                                                                                        State Medicaid agency, the individuals                 Services.
                                                  § 1007.17         Annual report.                                      serving as primary points of contact for               [FR Doc. 2013–11735 Filed 5–16–13; 8:45 am]
                                                  *        *         *         *          *                             data mining, as well as the contact                    BILLING CODE 4152–01–P




                                             VerDate Mar<15>2010         15:13 May 16, 2013         Jkt 229001   PO 00000   Frm 00043    Fmt 4700    Sfmt 9990   E:\FR\FM\17MYR1.SGM   17MYR1
